           ...




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




NATIONAL PRACTITIONER DATA BANK:
       PROFILE OF MATCHES




                 S'ERVIC1"




                             Richard P. Kusserow
      '0
                             INSPECfOR GENERA
             o,d'3a
                                  APRI 199
                         OFFICE OF INSPECTOR GENERA
 The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
 amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
 programs as well as the health and welfare of beneficiaries served by those programs. This
 statutory mission is carried out through a nationwide network of audits , investigations , and
 inspections conducted by three OIG operating components: the Offce of Audit Services , the
 Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
 the Secretary of HHS of program , and management problems , and recommends courses to
 correct them.

                               OFFICE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                               OFFICE OF INTIGATIONS
The OIG' s   Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enri hment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The . 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Boston Regional offce under the direction of Regional
Inspector General Mark R. Yessian , Ph. , and Deputy Regional Inspector General Martha B.
Kvaal. Project staff include:

David Veroff Project Leader
David Schrag,   Lead Analyst
Alan Levine     Headquarters
           ...~




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




NATIONAL PRACTITIONER DATA BANK:
       PROFILE OF MATCHES




              ..SEIWIC't..


                             Richard P. Kusserow
                             INSPECTOR GENERAL
      '0


            'lb'''dia
                                 OEI-Ol-90-O522
                         EXECUTIVE SUMMAR Y

  PUROSE
 Ths report profiles the set of occasions--known as matches--on which the National
 Practitioner Data Bank has provided records of malpractice payments or adverse
 actions to queryng entities.

 BACKGROUN
 The National Practitioner Data Bank opened on September 1 , 1990. It maintains
 records of malpractice payments (both judgments and settlements) and adverse actions
 against licensed health care practitioners. The Data Bank provides hospitals and other
 health care entities with information relating to the professional competence and
 conduct of physicians , dentists , and other health care practitioners. The Data Bank
 receives reports of adverse actions against practitioners from State licensing boards
 hospitals and other health care entities , and professional societies. It receives reports
 of malpractice payments from malpractice insurers.

 The Data Bank has received approximately 1 000 000 requests for information
 (referred to as " queries ) and 25 000 reports of adverse actions or malpractice
 payments. When a query names a practitioner who has been reported to the Data
 Bank, the query-record pair is referred to as a "match.

 The Office of Inspector General analyzed all Data Bank matches through March 19
 1992 , in preparation for a study on the use and utility of the information stored in the
 Data Bank. This analysis yielded rich information about the Data Bank' s history that
was unavailable elsewhere. To make available this information , which we believe may
 affect the management of the Data Bank , we are providing in this report a profile of
all matches. The report answers some basic questions about the Data Bank'
operations. The statistics presented do not reflect the use or utility of the information
obtained by queriers through matches. Our forthcoming report , however , will put
these statistics in context. We will survey a sample of queriers who have had matches
and determine what tyes of matches are most valuable.

FIINGS
As of March         19, 1992,   954 matche ha     occued Almt all of      the involved
hoitals receig informtin about             physin'.
              In 93 percent the practitioner involved was a physician.



              In 91 percent the querier involved was a hospital.
In   88
          peen of matche, the   innt
12 percent involved adverse actino.
                                        involved was a malpractie
                                                                    pa;     th other


          Half of the malpractice matches involved payments of $50 000 or less; most
          involved recent incidents.

          Licensing boards and hospitals each accounted for about half of the adverse
          action records involved in matches.

Nrn peen of matche involved prctine who             cred Slale   li   seekig work
APPENICE
In four appendices , we provide details on the tyes of practitioners , queriers
malpractice payments , and adverse actions involved in matches.
                                                               ..........................................
                                                                    . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .... .. .. . . . . . . . .
                                                            . . . . .




                                        TABLE OF CONTENTS€
                                                                                                                                                                   PAGE€
 EXECUTIVE SUMMAY€

INRODUCTION. . . . . . . €                                                                                                                                     . . . . . . 1



FINDINGS. . . . . . . . . . .                                                                                                                          ........3
         How many matches have occurred to date? ........................... 3

         What kinds of practitioners have been involved in matches? ............... 3

         What kinds of queriers have had matches? . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         What kinds of reports have resulted in matches? ....................... 4

         Has the Data Bank supplied information on practitioners
        who crossed State lines? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5€

APPENDICES€

A. Practitioners Involved in Matches. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                  . . A-

B. Queriers Involved in Matches. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                         . . . .. B-

C. Malpractice Payment Records Involved in Matches. . . . . . . . . . . . . . . . . . . .. C-


D. Adverse Action Records Involved in Matches. . . . . . . . . . . . . . . . . . . . . . . . . D-


E. Notes                 ............... ...................................... E-

                           INTRODUCTION
PUROSE
This report profies the set of occasions-- known
                                               as matches--on which the National
Practitioner Data Bank has provided records of malpractice payments or adverse
actions to queryng entities.

BACKGROUN
The National Practitioner Data Bank maintains records of malpractice judgments and
adverse actions against licensed health care practitioners. It was established by Title
IV of the Health Care Qllality Improvement Act of 1986 (P. L. 99- 660), and has been
in operation since September 1 , 1990. The Data Bank is funded by user fees and
Federal outlays and is administered by Unisys Corporation under contract to the
Health Resources and Servces Administration (HRSA) of the Public Health Servce
(PHS).

The Data Bank provides hospitals and other health care entities with information
relating to the professional competence and conduct of physicians , dentists , and other
health care practitioners. Congress believed it could , among other things , help
 restrict the ability of incompetent physicians to move from State to State without
disclosure or discovery of the physician s previous damaging or incompetent
performance.

                DEFION OF TERMS USED IN THS REPORT
 REPORT	                              Information sent to the Data Bank about a
                                      practitioner by a malpractice insurer, hospital
                                      licensing board , or professional society.

 RECORD                               A report that has been received and is
                                      permanently stored by the Data Bank.


 QUERY                                A request for information about a practitioner
                                      submitted to the Data Bank by a hospital
                                      licensing board , or other health care entity.

MATCH                                 A pairing of a record and query that identifies
                                      the same practitioner.
 Reports of adverse actions against practitioners are submitted to the Data Bank by
 State licensing boards , hospitals and other health care entities , and professional
 societies? These groups must report actions against physicians and dentists , and
 health care entities and professional societies may report actions against other licensed
 practitioners. Reports of malpractice payments are submitted by insurers , who must
 report all judgments and settlements made on behalf of all licensed practitioners.

 Data Bank records may be released only to authorized entities. These entities
 (referred to as " queriers ) include hospitals and other health care entities 4 State
 licensing boards , professional societies , and , under specified conditions , plaintiffs
 attorneys in malpractice suits. Also , practitioners may request their own records.
 Only hospitals are required by law to query the Data Bank. They must request
 records for practitioners wishing to obtain clinical privileges and , every two years , for
 all practitioners with privileges.



 When a hospital , licensing board , or other health care entity requests information on a€
 certain practitioner from the Data Bank , and that practitioner has been reported to
 the Data Bank , the query-record pair is referred to as a "match. " Through November
   , 1991 (the most recent date for which complete statistics are available), the Data
Bank had received 959 753 queries and 23 396 adverse action or malpractice payment
reports. 6 These queries and reports had resulted in approximately 9 000 matches.

The Offce of Inspector General analyzed Data Bank matches in preparation for a
study of the use and utilty of the information stored in the Data Bank. This analysis
yielded rich information about the Data Bank' s history that was unavailable elsewhere.
To make available this information , which we believe may affect the management of
the Data Bank , we are providing in this report a profie of all matches through March
    , 1992. The report answers some basic questions about the Data Bank' s operations.

The statistics presented in this report do not reflect the use or utility of the
information obtained by queriers through matches. Our forthcoming report , however€
will put these statistics in context. We will survey a sample of queriers who have had
matches and determine what tyes of matches are most valuable.

METHODOLOY
The Offce of Inspector General (OIG) requested and received from Unisys
Corporation a computer fie containing records as of March 19, 1992, of all queries
and reports received by the Data Bank that identified the same practitioner. 8 We
restructured and analyzed the data using Version 6. 04 of the SAS System for Personal
Computers. 9 We also obtained statistics pertaining to all reports and queries received
by the Data Bank , whether or not they were involved in matches , as of November 22
1991. This information was not available through March 1992. Our review was
conducted in accordance with the 

                                                                    issued by the
                                       Interim Standards for Inopections 


President' s Council on Integrity and Efficiency.
                                                          FINDINGS€
 HOW        MA MATCH HAVE OCD                                                  TO DATE?

      954 as of March             19, 1992€

 Between September 1 ,  1990 , and March 19 , 1992, a total of 20 954 records of adverse€
 actions or malpractice payments were sent to Data Bank queriers. In addition , there€
were a number of " choes " (in which a querier receives information it had previously
submitted), duplicate records ,                      and duplicate queries. lO None of these (1 939 matches
in all) constituted a real transfer of information , and thus they are not included in any
of our statistics.u€

The 20 954 matches resulted from 19                                034 queries. This means that each query
involved in a match provided the querier with an average of 1.0                              (20 954 + 19   034)
records per practitioner.

The number of matches increased sharply between November 1991 , when there were
about 9 000 matches                     Much of that increase is due to
                                    , and March           1992.1

improvements made by the Data Bank administrators in resolving partial matchesY
The Data Bank project officer estimated that 8 000 partial matches were resolved in€
February and March 1992 and that most of these resulted in matches. 14 Prior to€
February 1992 ,            the Data Bank had no mechanism for resolving these matches.

WHT KIS OF PRACll'1 0NERS HAVE BEEN INOLVED IN MATCH?
Nearl all are physicino.€

There were 10             185 different practitioners represented in matches,1 Ninety-three
percent of the matches involved physicians (18  257 involved allopathic physicians and€
  161 inv01ved osteopathic physicians); 4 percent involved dentists. Appendix A€
displays the tyes of practitioners involved in matches.€


Physicians are apparently overrepresented in matches. Just 75 percent of the
                                                                                   reports€
submitted to the Data Bank involved physicians , compared with 91 percent of the
matches. 16 This disparity is likely explained by the fact that hospitals are the only
mandated queriers of the Data Bank and are most likely to query about physicians.

WHT KIS OF QUERS HAVE HA MATCH?

Nearl all are hopitals.€

A total of 4 357 queriers submitted queries that led to matches. A vast majority of the
matches resulted from queries submitted by hospitals (91.2 percent). Health
maintenance organizations and preferred provider organizations accounted for
  3 percent and other health care entities for 1.8 percent. The remaining 0. 6 percent
were distributed among State licensing boards , group practices , and professional
societies. (Appendix B displays these figures in tabular form. ) These proportions       are
not unexpected. Hospitals are the only organizations required to query the Data
Bank. Other organizations that may be interested in queryng in the future have
various reasons for not doing so at this timeP

Most of the 19 122 hospital matches resulted from mandatory two-year queries
(64.3 percent). Initial privileging and employment queries accounted for 33. 9 percent
and professional review activity accounted for 1.6 percent.

Most queriers had matches on a small number of practitioners; the mean was 4.
practitioners matched per querier. Thirt- two percent of queriers matched on exactly
1 practitioner, and 76 percent matched on 5 or fewer. A few queriers matched on
many more practitioners; 1 health pJan had matches on 134 different practitioners.€

WHT KIS OF            REPORTS HAVE REULTED IN MATCH?

Nearl all are malpractie   pay;       peent are adverse
                                    just

board, health care ent, or profesnal socti.
                                           12                    actin' of   lien'g

A total of 938 reporters have submitted 11 296 adverse action or malpractice reports
that have been matched. Malpractice payment records made up 88 percent of all
the matches; adverse actions made up 12 percent. The corresponding percentages for
all reports to the Data Bank were 85 and 15.

       Half of the malpractice matches involved   payments of $50 000 or less; most
       involved recent incidents.

Malpractice payment amounts ranged from $1 to $4 675 000, with a mean of
$132 358. Most matches involved payments well below the mean; the median
payment amount was only $50 000.

Most matches involved fairly recent incidents of malpractice. Fifty- three


in 1961.23
                                                                             percent
involved incidents occurring in 1987 or later (including 11 that were erroneously
reported as occurring after 1992). The earliest incident involved in a match occurred


A majority of the malpractice records that appeared in matches fell into three major
categories of acts or omissions: 32 percent were surgery-related , 28 percent diagnosis-
related , and 19 percent treatment-related. Appendix C summarizes     the tyes of      acts
or omissions.
            Licen'ing boards and hospitals each accounted for about half of the adverse
            action records involved in matches.

Adverse action records appearing in matches came from two major sources. Fifty-
two percent came from licensure actions submitted by State boards and 47 percent
from hospital clinical privileges actions. The remaining 1 percent came from
professional societies reporting about membership actions.

Overall , 71 percent of adverse action reports received by the Data Bank were
licensure actions and 28 percent were clinical privileges actions. 24 One hypothesis to
account for the difference between the                    match      reportng
                                                                  proportions and the

proportions is that practitioners who have serious licensure actions taken against them
may refrain from seeking credentials. If they do refrain , their records will not be
requested and they will not be involved in matches.

The specific actions taken against practitioners that show up in matches include
probation of license (23 percent of adverse action matches) and denial of clinical
privileges (12 percent). The reasons for action include incompetence , malpractice
and negligence (16 percent of adverse action matches), unprofessional conduct
(11 percent), and alcohol and other substance abuse (10 percent). 25 Appendix D
summarizes the tyes of actions and reasons for actions.

HA TH DATA BAN SUPPLID INORMTION ON PRAcunONERS
WHO CROSED STATE LIN?

It ha happene                 956    ti; ie., in   9.3
                                                         percen of all matche.
One of Congress s priorities in establishing the Data Bank was to prevent incompetent
and unprofessional practitioners from evading detection by simpJy crossing State lines.
Interstate matches account for 9.3 percent of the total.26
                                    APPENDIX A€
                         PRACfITIONERS INVOLVED IN MATCHES
                           SEPTEMBER 1 , 1990 - MACH 19, 1992

  TYE OF PRAcrmoNER€                                    NUMBER OF       PERCENTAGE OF
                                                        MATCHES         MATCHES
  TOTAL                                                        954                 100.

  Physicians and Dentists                                   20, 165                 96.
         Allopathic Physicians€                                   038
         Allopathic Physician Residents€                          219
          Osteopathic Physicians€                                 135
          Osteopathic Physician Interns and Residents
         Dentits                                                  735
         Dental Residents€


 Podiatrits                                                                          2.3

 Psychologists

 Other Health Care DisciplineslPersonnel

         Chiropractors
         Optometrts
         Physician Assistants€
         Podiatrc Assistants€
         Professional Counselors
         Professional Counselors, Family/Marrge

 Nurses and Related€

         Regitered (Professional) Nurses
         Nurse Anesthetits€
         Nurse Midwives
         Psychiatrc Technicians€


 Emergency Care Personnel

 Rehabiltation!estorative Servce Personnel€

 Technicians and Technologists€

 Not Properly Coded                                           178




DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offce of Inspector General
                                                                . - -




                                           ApPENDIX B

                               QUERIERS INVOLVED IN MATCHES
                               SEPTEMBER 1 , 1990 - MACH 19, 1992

  TYE OF QUERIER                                NUMBER OF MATCHE                     PERCENTAGE OF
                                                                                     MATCHE
  TOTAL                                                                     954                         100.

  Non- Federal Hospital                                                     788                          89.

            Initial privilegig/employ,,,mt                               6,278
            Mana/ory two-year review                                    12,164
            Professional review activity                                   301
            Other€
            Slate Licensing Board:€

  HMO/pPO                                                                   319                           6.3

            Initial privilegig/employment                                   776
            Mana/ory two-year review                                        158
            Professional review activity                                    350
            Other

  Other Non- Federal Health Care Entity                                     382                           1.8

           Inil privilegig/emploYl1nl                                       257
           Mana/DIY two-year review                                         III
           Professional review activity
           Other€
           State Licensing Board:€

  Federal Hospital                                                          334                           1.6

           Initial privileging/emploYl1nt                                   202
           Mandatory two-year review                                        127
           Professional review activity

 State Licensing Board                                                                                    0.3

           Stale licensing board
           Mandatory two-year review
           Inital privilegig/employment.

 Group Practice

 Professional Socety

 Other Federal Health Care Entity

DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offce of Inspector General



    Denotes inconsistency between queryng entity ty and   query ty; could   result from improper form completion
or incorrect asignment of entity   ty code.
                                      APPENDIX C€
           MAPRACTICE PAYMENT RECORDS INVOLVED IN MATCHES
                              SEPTEMBER 1 , 1990 - MACH 19, 1992

        TYE OF                        NUMBER OF          PERCENTAGE OF            PERCENTAGE OF
        ACT/OMISSION                . MATCHE             MAPRACTCE                ALL MATCHES
                                                         RECORD
                                                         MATCHES
        TOTAL MATCHES                         954                                                  100.
        TOTAL                                 521                          100.                     88.4
        MAPRACTCE
        MATCHES

        Surgery- Related                      871                          31.7                     28.
        Diagnosis- Related                    125                          27.                      24.
        Treatment- Related                    440                          18.                      16.4
        Medication- Related                   335                                                    6.4
        Obstetrics- Related                   286
       Anesthesia- Related                   583
       Monitoring- Related                   235
       Intravenous and Blood                 220                            1.2                      1.0
       Products- Related

       Miscellaneous                         206                                                    1.0
       Biomedical Equipment/                 121
       Product- Related

       Not Properly Coded
                                                                                                    0.5




DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offce of Inspector General



    Malpractice payment reports can be given one or two codes indicating
                                                                        ty of act or omission. Of the 18 521
malpractice payment matches only 4 088 were asigned two codes. For clarity, thes secondary codes
disregarded in this table.                                                                       have been




                                                    C - 1
                   MAPRACTCE PAYMENT RECORDS INVOLVED IN MATCHES€
                              SEPTEMBER 1 , 199 - MACH 19 , 1992€
                                         (continued)

  MAPRACTCE PAYMENT
 NUMBER OF MATCHES€                             PERCENTAGE OF SINGLE€
  AMOUNT (SINGLE                                                    PAYMENT MAPRACfICE

  PAYMENT ONLY)€                                                    RECORD MATCHES€
  TOTAL                                                    962                              100.

  $1 - $29,
                                               434                               37.
  $30 00   - $49                                           506

  $50 00 - $99                                            870                                16.

  $100 00 - $499                                           129                               30.
  $500, 00 and above                                      023

  NOTE: Mean = $132 358; Median = $50 00; Mode = $100
        An additional 1 559 matches involved malpractice payments that belonged to a series of
        payments of unknown total value.




DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offce of Inspector General


                                              C-2
                              APPENDIX D€
            ADVERSE ACTION RECORDS INVOLVED IN MATCHES
                  SEPTEMBER 1 , 1990 - MACH 19, 1992

TYE OF ADVERSE              NUMBER OF MATCHES   PERCENTAGE OF     PERCENTAGE
ACTON                                           ADVERSE ACfrON    OF ALL
                                                MATCHES           MATCHES
TOTAL MATCHES                            954                           100.
TOTAL ADVERSE                          2,433              100,          11.6
ACTON MATCHES€
Licensure                                256               51.6
   Revocation
   Probation                              560
   Suspension                             129
   Miscellaneous                          515

Clinical Privileges€                    1I44              47.            5.5
   Revocation                             144
   Suspension                             164
   Voluntary Su"ender                     222
   Reduction in Prvileges                 122
   Other Restrction€                      113
   Deninl
                                292
   Revision to Action


Professional Society€                                       1.4
Membership

   Revocation

   Suspension

   Denial

   Not Properly Coded





                                       D-1
                       ADVERSE ACfION RECORDS INVOLVED IN MATCHES
                             SEP1EMBER 1 , 199 - MACH 19 , 199
                                         (continued)
   REASON FOR€                   NUMBER OF MATCHES€ PERCENTAGE OF                               PERCENTAGE
   ACfION€                                                          ADVERSE ACfION              OF ALL
                                                                    MATCHES                     MATCHE
   TOTAL MATCHES €                                       954                                               100.

   TOTAL ADVERSE 
                                     2,433                         100.                   11.6
   ACION MATCHES

   Alcohol and Other€                                    238€
   Substance Abuse

   Incompetence/Mal-€                                   380                           15.                    1.8€
   practice/Negligence€

   Narcotics Violations€                                                                                     0.4€
   Felony€                                                                              1.2€

   Fraud€
   Unprofessional Conduct€                              263€                          10.                    1.3€

   Mental Disorder€

  Allowing Unlicensed€
  Person to Practice

  Disciplinaty Action                                   127€
  Taken in Another State€
  Physical Impairment€                                                                 0.5€
  Other Reason-- NOI€                                   594€                          24.4€
  Classified€

  Miscellaneous Actions€                                603€                          24.€

  Not Properly Coded€                                                                  1.4€
  General Code Used€

DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offce of Inspector General€



     Reporters use this code when none of the aboe categories apply.€

                                                                                        ty
     Misellaneous licensure actions are not asigned clasification codes to parallel other       of actions. The
breakdow of misllaneous licensure action matches is as follow: License RestOred or Reinstated , 82 matches;
Reinstatement Denied , 5; Reprimand , 176; Other (Including Censure and Surrender), 249; License Denied (Renewal
Only), 1 and Not Properly Coded , 2. In addition , there were 87 matches related to revisions to actions on hospital
clinical privleges and 1 related to a revision to action on profesional soiety membership.€


                                                      D - 2€
                                     APPENDIX E
                                                 NOTES

Health Care Quality Improvement Act of 1986 (P. L.                    99- 660), Section 402.

Adverse actions include licensure revocation , suspension , and probation; clinical
privilege revocation , suspension , reduction , restriction , and voluntary surrender;
and professional society membership revocation , suspension , and denial; as well
as other categories. Some of these other categories include actions favorable to
practitioners , such as license reinstatement.

Under current law, State licensing boards must report actions only against
physicians and dentists , whereas other entities must report actions against
physicians and dentists and may report actions against other licensed health
care practitioners.

Malpractice insurers do not submit reports of payments on behalf of facilties
or corporations.


Health care entities must provide health care servces and engage in
professional review activity through a formal peer review process.

There are no Federal penalties assessed against hospitals for not querying the
Data Bank; however ,                  their failure to query could be used against them in legal
proceedings.

Presentation by Unisys project director at the National Practitioner Data Bank
Executive Committee Meeting, Alexandria , VA, December 5 , 1991.

An exact figure is not available. The match count of 9 261 reported as of
November 22 , 1991 , includes match types that do not fit the criteria used for
this report. For example , it includes matches resulting from duplicate reports
and queries.

Some tyes of matches were excluded from the computer file. These were self-
queries , in which practitioners requested their own Data Bank records , and
matches on reports that were later voided    (i.  removed from the Data Bank
because of errors).

The file we received from Unisys contained individual records for queries and
reports. Included in each record was a field for " Practitioner Identification
Number (PIN). " To construct our fie of matches , we created a new data set
containing a single record for each request-report pair that named the same
PIN.




                                                  E - 1
      We made two assumptions regarding the file received from Unisys. The first
      was that the PIN in each record was correct ,  meaning that only queries and
      reports referring to the same individual were paired. The second is that , with
      the exceptions noted above , the file did in fact contain the entire set of
      practitioners for whom both a report and a query had been received.
      SAS Institute, Cary, NC,    1988.


10.   Unisys also excluded reports sent to practitioners queryng about themselves€
      from the data base we received , but we do not know how many times this
      occurred. As of January 1992 , the number of self- queries was 117. We
      estimate that there were between 125 and 200 self- queries excluded from the
      data base.


      The originaJ data set obtained from Unisys consisted       of 23   153 matches , not
      counting matches on reports later deleted from the Data Bank. Of these , 260€
      were echoes , 1 756 were from duplicate queries , and 183 were from duplicate
      reports. Therefore , 20 954 (90. 5   percent) of the 23   153 original matches met
      our criteria for inclusion in the analysis.


12.   Cumulative Data Bank Statistics Summary, presented by Unisys project director
      at December 5 , 1991 , National Practitioner Data Bank Executive Committee
      Meeting, Alexandria , VA.

13.   Partial matches are cases when more than one , but not all identifyng fields
      match.

14.   Conversation with HRSA project officer , March 26 , 1992.€

15.   The number of matches is greater than the number of practitioners because€
      practitioners could have been mentioned in more than one report or could have€
      been queried about more than once.€
16.   Our data on cumulative Data Bank reports and queries is drawn from the
      Cumulative Data Bank Statistics Summary, presented by Unisys project director
      at the December 5 , 1991 , National Practitioner Data Bank Executive
      Committee Meeting, Alexandria , VA. Because the primary purpose of our
      data request was to generate a sample of queriers who had experienced
      matches , we asked for the most recent data available rather than data available
      as of November 22, 1991. The analyses of reports and queries that were
      conducted on November 22 , 1991 , were not available for the period ending
      March 19 , 1992. Our comparisons between the universe of matches and the
      universe of all reports and queries must be interpreted with this in mind.

17.   At the December 5 , 1991 , Data Bank Executive Committee meeting, heads of
      national organizations of licensing boards mentioned several reasons for not
      queryng the Data Bank. These include cost , limited history in the Data Bank


                                           E - 2€
      and duplication with the national organizations ' own data bases. Certainly, as
      the Data Bank ages , it will have more complete historical information and wil
      likely be more attractive to the optional users.
18.   The remaining 0. 2 percent of hospital matches were from queries marked as
      state licensing board (4 matches), or other (42 matches). This indicates that
      some hospitals may not be sure which of the "query tye " boxes on the query
      form they should check, or that some non-hospitals were inappropriately
      assigned identification numbers in the hospital category.
19.   The number of matches is greater than the number of reports because multiple
      queriers can match on the same report.
20.   See note 16 above.

21.   These calculations are based only on the 16 962 matches involving one- time
      payments. Excluded are 1 559 matches involving payments that were part of a
      series of installments , and for which the total payment amount was not
      available.

22.   There has been recent discussion of imposing a floor dollar amount on
      malpractice payment reports , which would eliminate reports for payments
      under the floor. The Physicians Insurance Association of  America has
      recommended a floor of $50 000 , while the American Medical Association has
      proposed a floor of $30 000 (Letter from the Chairman of the PIA Data
      Sharing Project to the Director of the Bureau of Health Professions , HRSA on
      February 25 , 1991). A $30 000 floor would have eliminated 37. 9 percent of the
      matches , and a $50 000 floor would have eliminated another 8. 9 percent
      (appendix C). This subject is covered more fully in our report titled " National
      Practitioner Data Bank: Malpractice Reporting Requirements " OEI- 01- 90-
      00521 , April 1992.

23.   One report mistakenly gave 1908 as the date of the incident. This report
      generated a match for seven different queries.

24.   See note 16 above.

25.   The coding system for classes of and reasons for adverse actions was taken
      from the National Practitioner Data Bank reporting instructions.
26.   A match was considered to be an interstate match if the querier s State was
      different from either the practitioner s work State or, for adverse actions , the
      reporter s State. We did not use the reporter s State for malpractice payment
      matches because many physicians are insured by out-of- State companies.




                                         E - 3€
